No. 20-366
In the

Supreme Court of the United States
_______________________________

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.,
Appellants,
v.
STATE OF NEW YORK, ET AL.,
Appellees.
_______________________________
ON APPEAL FROM THE UNITES STATES
DISTRICT COURT FOR THE SOUTHERN DISTRICT OF NEW YORK
_______________________________
APPELLEES’ OPPOSITION TO MOTION FOR EXPEDITED
CONSIDERATION OF THE JURISDICTIONAL STATEMENT AND FOR
EXPEDITION OF ANY PLENARY CONSIDERATION OF THIS APPEAL
_______________________________

Appellants fail to demonstrate exigent circumstances warranting expedited
consideration of this case, for three reasons.
First, Appellants’ request for expedition is flatly contrary to their own
repeated and unequivocal representations before the three-judge district court that
resolution in this Court can wait, and complete relief for either party can be
implemented without difficulty, well beyond this year—even until 2022. In their
pending motion, Appellants assert that the Court must decide this case before “the
December 31 statutory deadline” for the Secretary of Commerce to submit his report
to the President on “total population by States” for purposes of apportionment
pursuant to 13 U.S.C. § 141(b). Mot. at 6, 3. They further state that revising the

apportionment numbers after the Secretary has submitted them would cause
significant harm.
But Appellants repeatedly told the district court the opposite. Below, they
argued that “[t]here is no extreme time urgency to deciding this matter”; that “there
is no need to resolve this lawsuit before the submission of the enumeration numbers
to the President”; and that it “would be optimal” for this case “to reach the Supreme
Court . . . before the 2022 elections.” New York v. Trump, 20-CV-5770 (RCW)
(PWH) (JMF), Parties’ Joint Pre-Conference Letter, ECF No. 37, at 5 (S.D.N.Y. Aug.
3, 2020). That was so, they explained, because it would be “easy” for the Court to
“order adequate relief after apportionment,” well beyond the end of this year. New
York, 20-CV-5770 (RCW) (PWH) (JMF), Defs.’ Mem., ECF No. 118, at 48. There are
no changed factual circumstances that can possibly explain Appellants’ 180-degree
turn. Appellants’ prior representations in this very case preclude their request for
expedition here.
Second, the purported exigencies here are of Appellants’ own making. Prior
to issuance of the Presidential Memorandum at issue in this case, Appellants had
stated that they would be unable to meet the December 31 deadline due to the
COVID-19 pandemic, and announced that the Commerce Secretary would instead
seek to submit his apportionment report by April 30, 2021. National Urban League
v. Ross, 20-cv-05799-LHK, Order, ECF No. 208 at 7-8 (N.D. Cal. Sept. 24, 2020).
Appellants operated under the April 30, 2021 deadline for over four months, while

2

stating repeatedly, publicly and internally, that the Bureau could not meet the
December 31, 2020 statutory deadline. Id. at 59-63.
It was only after the Presidential Memorandum was released without
warning on July 21, and this litigation was filed on July 24, that Appellants
suddenly accelerated their plans and truncated the time for the Secretary’s
apportionment report, reverting to the December 31 deadline—an apparent bid to
lock in their preferred apportionment before judicial review could take place.
Having failed in that effort, Appellants cannot now leverage a belated, self-imposed
deadline to justify expedited appeal before this Court.
Third, the December 31 deadline—which forms the entire basis for this
motion—has been stayed by an order of the District Court for the Northern District
of California. See National Urban League, 20-cv-05799-LHK, Order, ECF No. 208
at 78. Appellants’ arguments for urgency here therefore hinge on a deadline that
Appellants may be unable to meet regardless of how this Court rules, and which is
now legally inoperative.
Appellants’ flip-flopping on positions they took before the district court
demonstrates the unsoundness of their position here. They have given no good
reason for rushed litigation by the parties, or rushed consideration by the Court—
especially in light of the immense significance of the census for the nation. The
motion should be denied and this appeal should proceed under the Court’s ordinary
practices and scheduling rules. In the alternative, if this Court grants Appellants’

3

motion to expedite consideration of the Jurisdictional Statement and/or appeal on
the merits, Appellees respectfully request an alternative schedule, set forth infra.
STATEMENT
1.

Every census in American history has “included every person residing

in the United States at the time of the census, whether citizen or non-citizen and
whether living here with legal status or without.” App. 3a. And every
apportionment has been performed on the basis of such an inclusive census count.
On July 21, 2020, however, with the census “still ongoing,” “the President
announced that this long-standing practice will no longer be the case,” and that—for
the first time in history—“it is the policy of the United States to exclude from the
apportionment base aliens who are not in a lawful immigration status.” App. 3a
(quoting Excluding Illegal Aliens From the Apportionment Base Following the 2020
Census, 85 Fed. Reg. 44,679, 44,680 (July 23, 2020) (“the Presidential
Memorandum”)).
2.

As its title explains, the Presidential Memorandum directs the

Secretary of Commerce, “following the 2020 census,” to include two numbers in his
apportionment report to the President under 13 U.S.C. § 141(b): the total
population in each State, as counted through the 2020 decennial census, which
includes undocumented immigrants; and a second number, which excludes
undocumented immigrants, and will purportedly form the basis for the
apportionment. See J.S. 5 (citing 85 Fed. Reg. at 44,680). The Presidential
Memorandum “anticipates that excluding illegal aliens from the apportionment

4

count could reduce the number of representatives in States with large immigrant
populations, noting explicitly that in ‘one State . . . home to more than 2.2 million
illegal aliens’—apparently, California—the inclusion of illegal aliens could ‘result in
the allocation of two or three more congressional seats than would otherwise be
allocated.’” App. 19a (quoting 85 Fed. Reg. at 44,680).
3.

On July 24, 2020, Appellees—a group of States and other

governmental entities, and a group of immigrants’ rights organizations engaged in
census outreach—filed complaints alleging that the Presidential Memorandum was
undermining census response rates by sowing fear, confusion and distrust about the
purposes of the census, and that the policy stated in the Presidential Memorandum
would cause Appellees and their constituents to lose political power during the next
apportionment, by reallocating seats in the House of Representatives away from
states with large immigrant populations. App. 20a. Appellees alleged that the
Presidential Memorandum violated several constitutional provisions and federal
statutes. Id.
4.

At the time Appellees filed their complaints, the Census Bureau’s

planned deadlines for field operations to collect census responses and for the
Commerce Secretary to report population totals to the President were October 31,
2020, and April 30, 2021, respectively, under an operational plan adopted by the
Bureau in response to the COVID-19 pandemic. App. 16a.
Because of the pandemic, both “the President of the United States and
Bureau officials publicly stated that meeting the [statutory] December 31, 2020

5

deadline [for the Commerce Secretary’s apportionment report] would be impossible
in any event,” and the Commerce Department Chief of Staff reported that, even
“under ideal conditions . . . apportionment counts could not be delivered until
January 31, 2021, already after the statutory deadline.” National Urban League,
20-cv-05799-LHK, Order, ECF No. 208 at 7, 9. On April 13, the President publicly
stated that, because of the pandemic, the Commerce Secretary’s apportionment
report would have to be delivered in 2021, regardless of the December 31 statutory
deadline: “I don’t know that you even have to ask [Congress]. This is called an act
of God. This is called a situation that has to be.”1
Accordingly, on April 13, 2020, through a joint statement from the Commerce
Secretary and the Census Bureau Director, the Census Bureau “issued an
adjustment to its Operational Plan to account for the impact of COVID-19 (the
“COVID-19 Plan”).” The plan extended census field operations until October 31,
and, given the government’s inability to meet the December 31 deadline for the
Commerce Secretary’s apportionment report, sought to add “120 additional calendar
days to deliver final apportionment counts,” so that the Commerce Secretary’s
apportionment report would be delivered to the President on April 30, 2021 rather
than December 31, 2020. National Urban League, 20-cv-05799-LHK, Order, ECF
No. 208 at 7.

White House, Remarks by President Trump, Vice President Pence, and Members
of the Coronavirus Task Force in Press Briefing,” April 13, 2020, available at
https://www.whitehouse.gov/briefings-statements/remarks-president-trump-vicepresident-pence-members-coronavirus-task-force-press-briefing-25/.
1

6

5.

After Appellants issued the Presidential Memorandum, and Appellees

filed the complaints in this case, the Census Bureau suddenly changed course and
announced a “Replan” on August 3, 2020. The Replan sought to end census field
operations on September 30 (instead of October 31), and provided that the
Commerce Secretary’s apportionment report would be submitted to the President on
December 31, 2020 (instead of April 30, 2021). App. 47a; Nat’l Urban League, 20-cv05799-LHK, Order, ECF No. 208 at 11-12. The Department of Commerce Inspector
General has concluded that the acceleration of these deadlines “poses a myriad of
risks to [the] accuracy and completeness” of the census, and confirmed with Census
Bureau officials that “the decision to accelerate the Census Schedule was not the
Bureau’s decision,” but instead “likely came from the White House” or the
Commerce Department, and that “the Presidential Memorandum had to have
played some role” in that decision.2
6.

The next day, in a joint letter filed in the district court on August 3,

2020, in response to the district court’s question “whether there is a date by which
the issues in this case need to be resolved and, if so, what that date is,” Appellants
wrote that “there is no extreme time urgency to deciding this matter.” New York,
20-CV-5770, Parties’ Joint Pre-Conference Letter, ECF No. 37, at 5.

U.S. Dep’t of Commerce, Office of the Inspector General, The Acceleration of the
Census Schedule Increases the Risks to a Complete and Accurate 2020 Census, Final
Management Alert No. OIG-20-050-M, at 10, 5, 6-7 (Sept. 18, 2020) (“OIG Report”),
available at https://www.oig.doc.gov/OIGPublications/OIG-20-050-M.pdf.
2

7

“More specifically,” Appellants continued, “there is no need to resolve this
lawsuit before the submission of the enumeration numbers to the President.” Id.
Appellants asserted that a decision from the district court “would be optimal with
sufficient time to reach the Supreme Court . . . before the 2022 elections.”
Appellants added that if the district court “decided the case soon after the President
sent the enumeration and apportionment to Congress in January 2021 (or later, if
Congress responds to the Census Bureau’s request for an extension to complete the
2020 Census), that should provide more than enough time for any relief the Court
ordered to be effectuated.” Id. (emphasis added). Appellants asserted that, after
final resolution of this case, “relief could simply involve apportionment based on” a
total population count different from the one included in the Secretary’s initial
apportionment report under 13 U.S.C. § 141(b). Id.
Thus, after accelerating the timelines for the census and apportionment,
Appellants sought to delay resolution of this case until after both would be finished.
That would have ensured that judicial review would not occur until after the
Secretary had already submitted Appellants’ preferred apportionment number—
based on Appellants’ unequivocal assertions that review by this Court can wait, and
complete relief for either party can be afforded, after the fact.
7.

On August 7, Appellees filed a motion for summary judgment (or, in

the alternative, for a preliminary injunction), only on claims that the Presidential
Memorandum violates the Enumeration Clause, as modified by the Fourteenth
Amendment; and violates 2 U.S.C. § 2a and 13 U.S.C. § 141. App. 22a.

8

8.

On August 10, the Chief Judge of the Second Circuit appointed a three-

judge panel to hear this case, consisting of Second Circuit Judges Wesley and Hall,
and Southern District of New York Judge Furman, pursuant to 28 U.S.C. § 2284(b).
App. 21a.
9.

On August 19, Appellants filed their opposition, once again asserting

that there was no urgency to resolving this case and that Supreme Court review
was unnecessary prior to the Commerce Secretary’s December 31 statutory deadline
for reporting the “total population by States” under 13 U.S.C § 141(b). Appellants
told the three-judge panel:
any purported apportionment injury that Plaintiffs could suffer is, as a legal
matter, not irreparable. The Supreme Court has regularly decided census
cases that, like this one, contest the relative apportionment of
representatives post-apportionment, because an erroneous or invalid
apportionment number can be remedied after the fact. . . . This case is not
different.
New York, 20-CV-5770 (RCW) (PWH) (JMF), Defs.’ Mem., ECF No. 118, at 48
(citing Utah v. Evans, 536 U.S. 452, 462 (2002); Franklin v. Massachusetts, 505 U.S.
788, 803 (1992); Dep’t of Commerce v. Montana, 503 U.S. 442, 445-46 (1992);
Wisconsin v. City of New York, 517 U.S. 1 (1996)). Appellants further stated that
the court “could order adequate relief after apportionment . . . a post-apportionment
remedy would be easy to craft.” Id.
10.

On September 10, the three-judge district court issued a per curiam

opinion and order granting Appellees’ motion for summary judgment on their
statutory claims. The court declared the Presidential Memorandum’s policy of
excluding undocumented immigrants from the apportionment base unlawful, and
9

enjoined the Commerce Secretary from including information in the Section 141(b)
report that would allow the President to implement the policy.
First, the district court held that there was “undisputed evidence that the
Presidential Memorandum is affecting the census count in the present,” App. 44a,
by causing “widespread confusion among illegal aliens and others as to whether
they should participate in the census, a confusion which has obvious deleterious
effects on their participation rate.” App. 35a. “These deterrent effects have farreaching ramifications, including increasing costs for census outreach programs run
by NGOs and governments,” such as the Plaintiff-Appellees. App. 35a. The court
further found that “the undisputed facts in the record also reflect that judicial relief
invalidating the Presidential Memorandum would likely reduce the confusion felt
by immigrant communities,” thereby enabling the Plaintiffs-Appellees to “conduct
more efficient and effective census outreach,” and ultimately “alleviate some of the
injuries being felt by Plaintiffs.” App. 42a. The district court thus concluded that
Appellees had standing to bring their claims based on their injuries arising from the
Presidential Memorandum’s chilling effect on census participation, and redressable
by declaratory and injunctive relief. App. 43a-68a. The district court declined to
address Appellees’ apportionment-related injuries, based in part on Appellants’
argument that “an illegal apportionment can be remedied even after the
apportionment process has taken place.” App. 43a.
Second, the district court ruled that the Presidential Memorandum violated 2
U.S.C. § 2a and 13 U.S.C. § 141, statutes requiring that congressional

10

apportionment be based on the results of the decennial census alone, and that the
census must include all persons whose usual residence is in the United States,
regardless of immigration status. App. 74a. The panel noted that “[t]he merits of
the parties’ dispute are not particularly close or complicated.” App. 6a. The Court
further noted that, “[i]n light of that conclusion, we need not and do not reach
Plaintiffs’ constitutional claims, let alone the Plaintiffs’ claims that did not form the
basis for their motion.” App. 94a.
Third, the district court issued a permanent injunction against all defendants
except the President, barring them from including in the Commerce Secretary’s
Section 141(b) report “any information concerning the number of aliens in each
State ‘who are not in a lawful immigration status under the Immigration and
Nationality Act.’” App. 99a-100a. The district court ordered that the Secretary’s
Section 141(b) report shall include only the results of the 2020 decennial census.
App. 99a. The district court clarified that its limited injunction did not block
Appellants “from continuing to study whether and how it would be feasible to
calculate the number of illegal aliens in each State.” App. 100a.
Finally, the district court also issued “an unambiguous judicial declaration
that the Presidential Memorandum is unlawful,” which the district court
determined “would help ensure that the chilling effects on participation in the
census are mitigated to the maximum extent possible.” App. 102a.
11.

Appellants filed a notice of appeal from the three-judge district court’s

final judgment and subsequently filed a jurisdictional statement in this Court.

11

Together with their jurisdictional statement, Appellants moved to expedite this
Court’s consideration of the jurisdictional statement and, if the Court notes
probable jurisdiction, to expedite its merits review. The motion argues that
“[e]xpedited consideration . . . is needed to enable the Court to be in a position to
resolve the appeal, if necessary, before the statutory deadlines,” i.e., the December
31 deadline for the Secretary of Commerce to report the census results to the
President, because otherwise Appellants “will be forced to make reports by the
statutory deadlines that do not reflect the President’s important policy decision
concerning the apportionment.” Mot. at 2.
12.

In separate litigation, on September 24, 2020, the U.S. District Court

for the Northern District of California granted a stay and preliminary injunction
concerning the August 3, 2020 “Replan,” which accelerated and curtailed the
census. National Urban League, 20-cv-05799-LHK, Order, ECF No. 208 (Sept. 24,
2020). The Court’s order (1) stays the “September 30, 2020 deadline for the
completion of data collection and December 31, 2020 deadline for reporting the
tabulation of the total population to the President . . . pursuant to 5 U.S.C. § 705”;
and (2) enjoins the Secretary of Commerce, Department of Commerce, Director of
the Census Bureau, and the Census Bureau from implementing the Replan
deadlines. Id. at 78. The effect of the order is to revert to the Bureau’s own April
30, 2021 deadline for delivery of the Secretary’s apportionment report to the
President.

12

ARGUMENT
A.

The Court Should Deny the Motion to Expedite

Appellants’ motion should be denied for three reasons.
1.

First, Appellants repeatedly and unequivocally stated in the district

court that review by this Court can wait, and complete relief in this case can be
afforded, well after the December 31 statutory deadline for the Commerce
Secretary’s apportionment report. Their request for expedition directly contradicts
those previous assertions.
Appellants base their motion on the assertion that “[e]xpedited consideration
. . . is warranted because the district court’s judgment interferes with the
Secretary’s ability to meet the December 31 statutory deadline while complying
with the President’s expressed policy.” Mot. at 6. But until they received an
adverse ruling from the district court, Appellants not only argued that urgent
resolution of this case was unnecessary, but that review by the Supreme Court
would be “optimal” after the December 31 deadline, and that an incorrect Section
141(b) report or apportionment could be easily and fully redressed with complete
relief long after December 31—so long as the case was resolved prior to the 2022
elections cycle. New York, 20-CV-5770, Parties’ Joint Pre-Conference Letter, ECF
No. 37, at 5.
For example, Appellants stated:
•

“There is no extreme time urgency to deciding this matter. More
specifically, there is no need to resolve this lawsuit before the
submission of the enumeration numbers to the President.” Id.
(emphasis added).
13

•

“[A] decision would be optimal with sufficient time to reach the
Supreme Court—and, if necessary, for relief to be effectuated—
before the 2022 elections. Therefore, if the Court decided the case soon
after the President sent the enumeration and apportionment to Congress
in January 2021 (or later, if Congress responds to the Census Bureau’s
request for an extension to complete the 2020 Census), that should
provide more than enough time for any relief the Court ordered to be
effectuated.” Id. (emphasis added).

•

After judicial resolution of this dispute, “relief could simply involve
apportionment based on” a different population total. Id.

•

“[A]ny purported apportionment injury that Plaintiffs could suffer is, as a
legal matter, not irreparable. The Supreme Court has regularly decided
census cases that, like this one, contest the relative apportionment of
representatives post-apportionment, because an erroneous or invalid
apportionment number can be remedied after the fact . . . . This
case is not different.” New York, 20-CV-5770 (RCW) (PWH) (JMF), Defs.’
Mem., ECF No. 118, at 48.

•

“[T]his Court could order adequate relief after apportionment . . . a
post-apportionment remedy would be easy to craft.” Id. (emphasis
added).

•

“[T]he Court’s evaluation of any claim . . . would benefit from allowing the
Census Bureau, the Secretary, and the President to complete the
enumeration and apportionment process.” New York, 20-CV-5770 (RCW)
(PWH) (JMF), Defs.’ Reply, ECF No. 154, at 2.

The Court should deny the motion to expedite, because Appellants repeatedly
represented to the lower court that there is no need to expedite. Indeed, based on
their earlier position, Appellants should be estopped from even seeking expedition.
The doctrine of judicial estoppel “protect[s] the integrity of the judicial process by
prohibiting parties from deliberately changing positions according to the exigencies
of the moment.” New Hampshire v. Maine, 532 U.S. 742, 749 (2001). Judicial
estoppel applies where: (1) the party’s position is “clearly inconsistent with its earlier
position”; (2) “the party has succeeded in persuading a court to accept that party’s
14

earlier position”; and (3) “the party seeking to assert an inconsistent position would
derive an unfair advantage . . . if not estopped.”

Id. at 750–51 (2001) (internal

quotation marks omitted).
All three factors are met here. First, Appellants have repeatedly asserted
that appellate review by this Court would be “optimal” after December 31, so long as
it took place before the 2022 elections, New York, 20-CV-5770, Parties’ Joint PreConference Letter, ECF No. 37, at 5; that “an erroneous or invalid apportionment
number can be remedied after the fact”; and that such a remedy would be “easy to
craft.” New York, 20-CV-5770 (RCW) (PWH) (JMF), Defs.’ Mem., ECF No. 118, at
48. And the district court carefully tailored its injunction to ensure that, if
Appellants ultimately prevail on appeal, they may immediately implement their
preferred apportionment: “To be clear, as an exercise of discretion, this Court does
not enjoin Defendants from continuing to study whether and how it would be
feasible to calculate the number of illegal aliens in each State.” App. 99a-100a. The
White House has since acknowledged that the injunction does not impede
Appellants from preparing to implement the policy in the Presidential
Memorandum:
[T]he district court’s order does not prevent the Department of Commerce
from continuing preparations to execute the President’s policy not to include
illegal aliens in the apportionment base. Nor does it affect . . . the
Department of Commerce’s efforts to compile citizenship and immigration
status data to achieve an accurate count of the number of illegal aliens in the
country. Accordingly, the Federal Government’s work . . . continues
unabated.3
Statement from the White House Press Secretary, Sept. 18, 2020 (emphasis
added). Available at https://www.whitehouse.gov/briefings-statements/statement3

15

Appellants’ new position—that “[e]xpedited consideration . . . is needed to
enable the Court to be in a position to resolve the appeal” before the Secretary
submits his population report under Section 141(b), Mot. at 2, and that relief
awarded after that deadline would “undermine the point of deadlines established by
Congress,” Mot. at 6—directly contradicts their previous representations to the
district court. See supra. And, while Appellants asserted below that this case was
not urgent because the Presidential Memorandum’s effect on the apportionment
was inchoate and “entirely speculative,” New York, 20-CV-5770 (RCW) (PWH)
(JMF), Defs.’ Mem., ECF No. 118, at 48, Appellants now warn this Court that
expedited proceedings are necessary because reversing the injunction “may [make
it] necessary to alter the apportionment” in the future. Mot. at 6. Defendants have,
in multiple respects, “deliberately chang[ed] positions according to the exigencies of
the moment.” New Hampshire, 532 U.S. at 749-50.
Second, the district court accepted Appellants’ previous representations, and
relied on them in declining to address plaintiffs’ second theory of standing, which
was based on how the Presidential Memorandum will affect the final state-by-state
apportionment numbers. While Appellees disagreed in the court below with
Appellants’ view that it would be unproblematic to revise the apportionment
numbers after-the-fact,4 Appellants won on this issue below and Appellees lost: The

press-secretary-091820/.
In the district court, Appellees also sought a prompt ruling because Appellants’
actions were actively interfering with the ongoing census count and had committed
Appellants to an unlawful apportionment. It was necessary for the district court to
4

16

district court ruled that there would not “be any harm in waiting until January
2021” to address Plaintiffs’ apportionment-related injuries because “an illegal
apportionment can be remedied even after the apportionment process has taken
place.” App. 43a (citing Utah, 536 U.S. at 462-63).
That reliance suffices for estoppel purposes. Judicial estoppel requires only
that “the party's former position has been adopted in some way by the court in the
earlier proceeding.” In re Adelphia Recovery Tr., 634 F.3d 678, 695-96 (2d Cir.
2011) (internal quotation marks omitted); see also Montrose Med. Grp. Participating
Sav. Plan v. Bulger, 243 F.3d 773, 783 (3d Cir. 2001) (“so long as the initial claim
was in some way accepted or adopted, no further showing is necessary that the
party ‘benefitted’ in any particular way”); In re Coastal Plains, Inc., 179 F.3d 197,
206 (5th Cir. 1999) (“the ‘judicial acceptance’ requirement ‘does not mean that the
party against whom the judicial estoppel doctrine is to be invoked must have
prevailed on the merits . . . only that the first court has adopted the position urged
by the party, either as a preliminary matter or as part of a final disposition’”)
(quoting Reynolds v. Commissioner of Internal Revenue, 861 F.2d 469, 473 (6th Cir.
1988)).

act quickly to allow the census count to proceed unimpeded, by requiring Appellants
to adhere to the same total-population-based apportionment policy that has been
followed since the Founding. But now, the appeal from the status quo established
by the decision below does not require further expedition, because no party claims
that the decision impairs an accurate census count or requires an apportionment
base that would be unlawful.
17

Third, Appellants now seek an unfair advantage, repudiating their prior
positions in order to obtain expedited consideration of an adverse judgment. Despite
previously arguing to the district court that “a post-apportionment remedy would be
easy to craft” and would be fully “adequate” to address “an erroneous or invalid
apportionment,” New York, 20-CV-5770 (RCW) (PWH) (JMF), Defs.’ Mem., ECF No.
118, at 48, Appellants now seek expedited appeal by asserting to this Court that
“[s]uch a post-apportionment remedy . . . would undermine the point of the deadlines
established by Congress, which is to provide prompt notice to the Nation about the
new apportionment that will govern the next congressional elections.” Mot. at 6.
The Court should reject Appellants’ gamesmanship. Just as the “the
Government should turn square corners in dealing with the people,” Dep't of
Homeland Sec. v. Regents of the Univ. of Cal., 140 S. Ct. 1891, 1909 (2020) (internal
quotation marks omitted), the government must turn square corners in dealing with
the federal judiciary. A private litigant would be held to account for reversing its
factual representations in this manner. The Appellants should be too.
2.

The motion should be denied for a second reason: Appellants’ purported

concern about meeting their deadlines is a problem of their own making. Prior to this
litigation, Appellants had publicly stated their expectation that they would be unable
to comply with the December 31 deadline at all because of COVID-19 pandemic, and
announced that the Commerce Secretary would instead seek to submit his
apportionment report by April 30, 2021. National Urban League, 20-cv-05799-LHK,
Order, ECF No. 208 at 7-8. The President disclaimed that a statutory change was

18

needed to permit submission of the apportionment report at that time, and
Appellants then operated under the April 30, 2021 deadlines for over four months.
Id. at 59-63. It was only after the Presidential Memorandum was issued and this
litigation was brought that Appellants accelerated plans to meet a December 31
deadline, and then argued that this case can and should be heard by this Court well
after the end of this year. Appellants’ alleged exigencies now are thus the product of
their own failed effort to ram through their preferred apportionment before judicial
review could take place.
In fact, any time sensitivities of this dispute were caused by Appellants’ odd
choice of timing in issuing the Presidential Memorandum—more than a year after a
related Executive Order regarding the collection of citizenship data in July 2019, and
with only a few months left before the end of census outreach efforts. As the district
court observed: “The President could have issued his Presidential Memorandum well
before the census began, in which case Plaintiffs would have had ample time to obtain
a definitive ruling on their claims” or “waited until census operations were over, in
which case there would have been no risk of the census-related harms that Plaintiffs
seek to remedy.” App. 67a; see also App. 46a.
In sum, it “would make little sense” if expedited briefing “were available when
a litigant [is] responsible for its own delay.” Menominee Indian Tribe of Wisconsin v.
United States, 136 S. Ct. 750, 756 (2016). Appellants should not receive the benefit
of an expedited appeal due to their artful timing of the Presidential Memorandum
and the shifting deadline for the Commerce Secretary’s apportionment report.

19

Appellants’ choices are “a bed of their own making.” Nelson v. Adams USA, Inc., 529
U.S. 460, 468 (2000) (citation and internal quotation marks omitted).
3.

Finally, the motion should be denied because the December 31 deadline

is not currently operative as either a practical or legal matter. As noted, supra,
Appellants have repeatedly represented that they cannot even meet the December 31
deadline underlying their request. And that deadline has now been stayed by order
of the United States District Court for the Northern District of California.

See

National Urban League, 20-cv-05799-LHK, Order, ECF No. 208 at 78. The reporting
deadline is now April 30, 2021.5
Appellants thus have no basis for seeking expedited consideration of this case.
If the Court chooses not to dismiss the Jurisdictional Statement or to summarily
affirm, the Court could set a merits argument for March, which would give the parties

Moreover, bipartisan-sponsored legislation was introduced just last week on
September 24, which would officially extend the statutory deadline for the
Commerce Secretary’s apportionment report to April 30, 2021. See Census
Deadline Extension Act, available at https://www.murkowski.senate.gov/imo/media/
doc/09.15.20%202020%20Census%20Deadline%20Extensions%20Act.pdf. And, in
any event, this Court and lower courts have frequently approved agency actions
that miss statutory deadlines. See, e.g., Barnhart v. Peabody Coal Co., 537 U.S.
149, 157, 171–72 (2003) (upholding the Social Security Commissioner’s late
assignment of beneficiaries to coal companies despite the fact that it “represent[ed]
a default on a statutory duty, though it may well be a wholly blameless one”);
Newton Cty. Wildlife Ass’n v. U.S. Forest Serv., 113 F.3d 110, 112 (8th Cir. 1997)
(“Absent specific statutory direction, an agency’s failure to meet a mandatory time
limit does not void subsequent agency action”); Linemaster Switch Corp. v. EPA,
938 F.3d 1299, 1304 (D.C. Cir. 1991) (explaining that the Court did not want to
restrict the agency’s powers “when Congress . . . has crafted less drastic remedies
for the agency’s failure to act”).
5

20

a reasonable period of time in which to brief the statutory and constitutional
questions at issue in this appeal.
B.

If the Court Does Expedite this Matter, it Should Reject
Appellants’ Proposed Schedule

If, however, this Court were to grant Appellants’ motion to expedite
consideration of this case, Appellees respectfully request a schedule that is somewhat
different from the one proposed by Appellants, both with respect to responding to the
Jurisdictional Statement and with respect to merits briefing.
First, if the Court decides to expedite consideration of the Jurisdictional
Statement, the Court should set an October 12 deadline for Appellees’ response. Even
if the Court grants the motion for expedition at the earliest opportunity, on Monday,
September 28, the October 2 deadline that Appellants propose would give Appellees
at most four days to prepare a response to the jurisdictional statement. That is not
sufficient time.

October 12 would be a more reasonable deadline for Appellees’

response to the Jurisdictional Statement.
Second, if the Court notes probable jurisdiction after expediting, the Court
should not adopt Appellants’ proposed merits schedule.

That schedule provides

Appellants with over seven weeks between the date of the lower court’s judgment and
the deadline for their opening brief, but affords Appellees only two weeks to respond.
Appellees’ alternative proposed schedule will afford all parties adequate time to
respond and allow for the completion of briefing in time for the Court’s December
2020 sitting.

21

Specifically, if the Court grants the motion, Appellees respectfully propose the
following schedule for briefing and argument:
October 30, 2020

Appellants’ opening brief
(7 weeks from the decision below)

November 20, 2020

Appellees’ brief
(3 weeks from the opening brief)

November 27, 2020

Appellants’ reply brief
(1 week from Appellees’ brief)

December Sitting

Oral argument

Appellees also do not object to Appellants’ proposal that amicus briefs in support of
each party be due on the dates that the parties’ briefs are due.
CONCLUSION
For these reasons, the Court should deny Appellants’ motion to expedite
consideration of the Jurisdictional Statement and to expedite plenary consideration
of the appeal.
However, in the event that the Court grants Appellants’ motion with respect
to consideration of the Jurisdictional Statement, the Court should order that
Appellants’ response to the jurisdictional statement be due on October 12, 2020.
And, if the Court notes probable jurisdiction and grants Appellants’ motion with
respect to merits review, the Court should order that Appellants’ opening brief be
due on October 30, 2020 as proposed in Appellants’ motion, and that Appellees’
opposition and Appellants’ reply briefs be due respectively on November 20, 2020
and November 27, 2020.

22

Respectfully submitted,
John A. Freedman
Elisabeth Theodore
R. Stanton Jones
Daniel F. Jacobson
Chase Raines
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, N.W.
Washington, D.C. 20001

Dale E. Ho
Counsel of Record for NYIC, et al.
Cecillia D. Wang
Davin Rosborough
Adriel I. Cepeda Derieux
Sophia Lin Lakin
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2693
dho@aclu.org

Perry Grossman
NEW YORK CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

David D. Cole
Sarah Brannon
Ceridwen Cherry
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005

Andre I. Segura
Edgar Saldivar
Thomas Buser-Clancy
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF TEXAS
P.O. Box 8306
Houston, TX 77288

LETITIA JAMES
Attorney General
State of New York
Barbara D. Underwood
Solicitor General
Counsel of Record for
the State of New York, et al.
Steven C. Wu
Deputy Solicitor General
Judith N. Vale
Senior Assistant Solicitor General
Matthew Colangelo
Chief Counsel for Federal Initiatives
Elena Goldstein
Deputy Chief, Civil Rights Bureau
Morenike Fajana
Special Counsel
Eric R. Haren
Special Counsel
Fiona J. Kaye
Assistant Attorney General
OFFICE OF THE NEW YORK STATE
ATTORNEY GENERAL
28 Liberty Street
New York, NY 10005

Julia A. Gomez
Peter Eliasberg
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West 8th Street
Los Angeles, CA 90017

Attorneys for Appellees

Dated: September 28, 2020

23

